                                                          NATIONAL SCIENCE FOUNDATION
                                                           OFFICE OF INSPECTOR GENERAL
                                                                                                            il
                                                                                                            I
                                                                                                            I
                                                            OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM

      Case Number: I05080030                                                                         Page 1 of 1



                   An award1 was identified for further review as part of a proactive investigative review of
            awards for international collaboration. The institution2 provided documentation for expenses
            charged to the award. We identified issues related to the required approval for participant support
            fund reallocation, the use of a foreign air carrier with a business class seat, and the per diem rate used
            for overseas travel. In response to our questions, the institution credited $140 back to the award.
            The award has been recommended for referral to the OIG Office of Audit.

                      Accordingly, this case is closed.




11'
  NSF OIG Form 2 (1 1/02)
